NO. 19-956
IN THE

Supreme Court of the United States
SHERIFF DONALD E. CRAIG,
SGT. TRAVIS PALMER CURRAN, A.K.A.
TRAVIS LEE PALMER, DEP. FRANK GARY HOLLOWAY,
DEP. KEELIE KERGER, DEP. BILL HIGDON,
DEP. TODD MUSGRAVE, ET AL.,

Petitioners,

v.

JANET TURNER O’KELLEY, INDIVIDUALLY AND
AS PERSONAL REPRESENTATIVE OF THE ESTATE OF
JOHN HARLEY TURNER, JOHN ALLEN TURNER,

Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI
SIDNEY LEIGHTON MOORE, III

Counsel of Record

THE MOORE FIRM, P.C.
1026 Kasper Road
Moscow, ID 83343
(404) 285-5724
leighton@moorefirmpc.com
Dated: March 2, 2020
BATEMAN & SLADE, INC.

STONEHAM, MASSACHUSETTs

TABLE OF CONTENTS
TABLE OF AUTHORITIES ..................................... iii
INTRODUCTION .......................................................1
STATEMENT OF THE CASE ....................................3
I.

Statement of Facts .................................3

II.

Statement of Proceedings Below ...........8

REASONS TO DENY THE PETITION ...................11
I.

II.

This is not a proper case in which
to decide what precedents, other
than this Court’s precedents,
may clearly establish the law for
purposes of qualified immunity. .........11
A.

Defendants’ first question
presented was waived
below. ........................................12

B.

The Eleventh Circuit did
not decide Defendants’
first question presented. ...........14

C.

There is no applicable split
of authority. ..............................16

Defendants’ second question also
was not argued or decided below
and is not a proper candidate for
certiorari on this record. ......................20

i

III.

Certiorari should not be granted
to determine whether the
Eleventh Circuit correctly
applied its own circuit precedent. .......22

CONCLUSION ..........................................................24
APPENDIX
Appendix A - Complaint for Damages ...........1a

ii

TABLE OF AUTHORITIES
CASES:

Affiliated Capital Corp. v. City of Houston,
735 F.2d 1555 (5th Cir. 1984) ..................18, 19

Arebaugh v. Dalton,
730 F.2d 970 (4th Cir. 1984) ..........................17

Bryan v. United States,
913 F.3d 356 (3d Cir. 2019) ............................19

City & Cty. of S.F. v. Sheehan,
575 U.S. 600, 135 S. Ct. 1765 (2015)
...................................................................14, 20

D. C. v. Wesby,
138 S. Ct. 577 (2018) ................................11, 12

Doby v. Hickerson,
120 F.3d 111 (8th Cir. 1987) ..........................17

Feliciano v. City of Miami Beach,
707 F.3d 1244 (11th Cir. 2013) ......................15

Garcia by Garcia v. Miera,
817 F.2d 650 (10th Cir. 1987) ........................17

Hamilton v. Southland Christian Sch., Inc.,
680 F.3d 1316 (11th Cir. 2012) ......................13

Lafayette v. Louisiana Power & Light Co.,
435 U.S. 389, 98 S. Ct. 1123,
55 L. Ed. 2d 364 (1978) ..................................18
iii

Lintz v. Skipski,
25 F.3d 304 (6th Cir. 1994) ............................17

Moore v. Pederson,
801 F.3d 1325 (11th Cir. Sept. 16, 2015)
................................................................. passim

Moore v. Pederson,
806 F.3d 1036 (11th Cir. Oct. 15, 2015)
................................................................. passim

Payton v. New York,
445 U.S. 573, 100 S. Ct. 1371 (1980)
...................................................................15, 19

Riddick v. New York,
45 N.Y.2d 300, 408 N.Y.S.2d 395,
380 N.E.2d 224, Prob. juris. noted,
439 U.S. 1045, 99 S. Ct. 718,
58 L. Ed. 2d 703 (1978). .................................19

Robinson v. Bibb,
840 F.2d 349 (6th Cir. 1988) ..........................17

Schlothauer v. Robinson,
757 F.2d 196 (8th Cir. 1985) ....................18, 19

Terry v. Ohio,

392 U.S. 1 (1964) .................................... passim

United States v. Holloway,
290 F.3d 1331 (2002) ................................10, 23

United States v. Houle,
603 F.2d 1297 (8th Cir. 1979) ........................18
iv

CONSTITUTIONAL PROVISIONS:
Fourth Amendment...................................................18
STATUTES:
42 U.S.C. § 1983 ....................................................8, 18
42 U.S.C. § 1988 ..........................................................8
RULES:
11th Cir. Rule 36-2 ....................................................20
Federal Rule of Civil Procedure 12(b)(6) ..........3, 8, 21

v

INTRODUCTION
On the night of October 24, 2015, the
Defendant sheriff’s deputies came to the rural
Georgia home of John Harley Turner (“Harley”)1 to
investigate a report that someone had made verbal
threats to scare off some unwanted raccoon-hunters.
When the deputies arrived, the incident was over
and the hunters were safely far away. Harley met
the deputies at his driveway gate and talked with
them. He was armed with a pistol, but he did not
threaten anyone with it. Instead, after discovering
that his visitors were law enforcement and not
trespassers, he tried to return to his cabin. But
Defendants stopped him at gunpoint and detained
him in his gated driveway for well over half an hour.
During this lengthy standoff, Harley kept his pistol
holstered and did not threaten the deputies. He even
offered them a drink of water and told them he just
wanted to go to bed. But he refused their requests to
put his pistol on the ground, and he did not give
them permission to enter his fenced yard.
At no relevant time did Defendants ever seek
or obtain a warrant for Harley’s arrest. Instead,
apparently frustrated with his limited cooperation,
they devised a military-style operation to take him
down. Two Georgia State Patrol officers, armed with
rifles, took up sniper positions. Then, when Harley
went back to his cabin for water, two deputies
crossed the fence in the dark and hid behind a hedge
with twelve-gauge shotguns. Harley came back, his
pistol holstered, carrying a water jug in one hand
Plaintiffs’ decedent was an adult, but is
denominated by his given name here in order to distinguish
him from Plaintiff John Allen Turner, and because that is how
the Eleventh Circuit referred to him in the decision below.
1

1

and a flashlight in the other. An unarmed deputy
approached the driveway gate and invited Harley to
come and talk to her. It was a ruse. While Harley’s
attention was diverted, one of the hidden deputies
fired his shotgun three times, dropping Harley to the
ground with a “less lethal” shot-filled beanbag.
Harley drew his weapon and fought back, and the
officers shot him dead.
The District Court granted all Defendants’
motions to dismiss on grounds of qualified immunity.
On appeal to the Eleventh Circuit, Defendants
conceded that Harley was within the curtilage of his
home; that they lacked a warrant; and that their
seizure of Harley therefore would not be justified
unless they had consent or exigent circumstances.
(Pet. App., 14a.) The Eleventh Circuit reversed on
the ground that there was clearly no consent and
that the facts alleged in the Complaint would not
justify a reasonable officer in believing that exigent
circumstances existed. Id.
Of the three questions presented in
Defendants’ Petition for Writ of Certiorari, not one
asks this Court to decide any issue regarding the
existence vel non of consent or exigent circumstances
to support a warrantless seizure. Instead, all three
questions address whether Eleventh Circuit
precedent clearly established on October 24, 2015,
that officers could not cross the boundary of a
suspect’s home to perform a stop on reasonable
suspicion pursuant to Terry v. Ohio, 392 U.S. 1
(1964). But a ruling in Defendants’ favor on that
issue would not change the outcome of this case. The
Eleventh Circuit did not decide whether Defendants
had probable cause, whether they had reasonable
suspicion, or which standard applied. Instead, the
holding below was that Defendants could not prevail
2

on their Motion to Dismiss even if they met the
higher standard of probable cause, because, on the
allegations of the Complaint, they could not
reasonably have believed that exigent circumstances
necessitated a warrantless seizure.
In summary, the Petition presents questions
that were not briefed or decided below, largely
because Defendants conceded crucial issues. For this
reason, and as demonstrated below, this Court
should deny certiorari.
STATEMENT OF THE CASE
Because this case arises from a ruling on
Defendants’ Motion to Dismiss pursuant to Federal
Rule of Civil Procedure 12(b)(6), the facts must be
drawn solely from the allegations of the Complaint,
and those allegations must be construed in favor of
Plaintiffs as the non-moving parties. Unlike the
Eleventh Circuit, Defendants disregard this
standard. They ignore the allegations they do not
like and tendentiously construe the rest in their own
favor. They also fail to mention their own
concessions that framed the issues for the Eleventh
Circuit. Plaintiff respectfully directs the Court to the
Eleventh Circuit’s opinion, Pet. App. A, as a fairer
summary of the case. In addition, and consistently
with the Eleventh Circuit’s summary, Plaintiffs
provide the statement below with citations to the
paragraphs of the Complaint. The Complaint itself is
included as Appendix A to this brief (Resp. App. A).
I.

Statement of Facts

On October 24, 2015, Pickens County Sheriff’s
Office Deputies Frank Gary Holloway, Keelie
Kerger, and Bill Higdon responded to a 9-1-1 call for
an already-completed incident involving allegations
3

that a resident had accused some hunters of
trespassing and had scared them away from his
property by threatening to harm them. (Resp. App.
A, ¶¶ 22, 24.) The hunter who reported the incident
had safely left the property, and he waited while the
Deputies drove to meet him. (Id., ¶¶ 23-25.) After
getting the hunter’s story, the Deputies drove to
1607 Carver Mill Road, Pickens County, Georgia.
(Id., ¶ 25.)2
Harley lived at 1607 Carver Mill Road in a
small house behind the main house, which was
occupied by Harley’s mother, Janet Turner O’Kelley,
and her husband, Stan O’Kelley. (Id., ¶ 26.) The
O’Kelley and Turner houses were enclosed in a fence
with a closed gate that blocked the driveway. (Id.)
When the Deputies arrived at about 9:00 p.m., they
spoke briefly with Stan O’Kelley, who told them his
stepson Harley was the one who had been reported,
and that Harley was armed.3 (Id., ¶ 28.) There was
no crime in progress at that time. (Id., ¶ 27.)
As the officers spoke with Mr. O’Kelley,
Harley approached the gate from the back house.
(Id., ¶ 29.) He was shirtless and armed with a pistol
with a chest holster. (Id.) Harley was talking loudly
about trespassing as he approached, but he did not
point the gun at anyone and did not threaten anyone
2
Defendants state that the Deputies met the
hunter on Carver Mill Road. Pet., p. 4. There is no such
allegation in the Complaint, and Defendants do not cite any
paragraph of the Complaint in support of their assertion. Id.

Defendants inaccurately state that Mr. O’Kelley
told the Deputies that Harley had threatened the hunters. Pet.,
p. 4. In fact, the Complaint does not state whether Mr. O’Kelley
expressed any opinion at all about what had happened between
Harley and the hunters, or whether he was even present for
that encounter. Resp. App. A, ¶ 28.
3

4

with the gun. (Id.) He did not open the gate. (Id.)
Shouting and with guns raised, the Deputies ordered
Harley to put his hands up and put his gun down.
(Id., ¶ 30.) They did not identify themselves as law
enforcement, and Harley’s questions to them suggest
that he thought they were trespassers. (Id. (alleging
that Harley asked them, “Why are you trying to
trespass?”).)
At approximately that time Deputy Todd
Musgrave arrived, followed immediately by Deputy
Travis Curran. (Id., ¶ 31.) Deputy Musgrave carried
a shotgun. (Id.) Deputy Curran had two shotguns,
one of which was loaded with “less lethal” beanbag
rounds. (Id.) Two Georgia State Patrol officers,
Jonathan Salcedo and Rodney Curtis, also arrived at
about that time, armed with rifles, and took up
sniper positions. (Id.)
At that point, Harley tried to terminate the
encounter by walking back from the gate to his
house. (Id., ¶ 32.)4 But rather than let him leave, the
Deputies shouted at Harley to put the gun down and
get on the ground. (Id.) Harley told them to just keep
trespassers off his property, and tried to walk away
again. (Id., ¶ 33.) The Deputies, still pointing guns at
his back, ordered him to come back to the fence. (Id.)
Around 9:05 p.m., Plaintiff Janet Turner
O’Kelley arrived at the property. (Id., ¶ 34.) She had
Defendants mischaracterize Harley’s attempted
exit in sinister terms, misleadingly asserting that Harley
“unholstered the pistol and wielded it above his head.” Pet.,
p. 4. But that is not what the Complaint alleges. According to
the Complaint, the only time Harley raised the gun above his
head was when he put his hands up and turned his back to the
officers in an effort to disengage from them. (Doc. 1, ¶ 32.) In
fact, the Complaint alleges over and over again that Harley did
not threaten the officers with the gun. (Id., ¶¶ 29, 37, 58.)
4

5

been away for the evening, volunteering at a local
community theater. (Id.) Ms. O’Kelley saw that
Curran had a shotgun, and she told the officers that
there should be no shooting and that Harley would
defend himself if they opened fire. (Id.) The deputies
would not let Ms. O’Kelley talk to Harley, but sent
her back down the driveway towards her vehicle.
(Id.) They had previously sent Stan into a neighbor’s
house to get him out of the way. (Id.)
For approximately the next half-hour, the
officers kept Harley there and attempted to get him
to put his gun on the ground while Harley walked
back and forth in the driveway, wearing his gun in
its chest holster and arguing that he simply wanted
the officers to keep trespassers away from his
property, and he wished they all would leave so that
he could go to bed. (Id., ¶ 35.) Harley was distressed
and perceived the Deputies as threatening him. (Id.,
¶ 36.) However, he never threatened or pointed the
gun towards the Deputies, and he even offered them
a drink of water. (Id., ¶ 37.)
At no point did Harley open the gate or leave
the area within the fence that surrounded the
O’Kelley and Turner residences. (Id., ¶ 38.) He
remained within the curtilage of his dwelling at all
relevant times. (Id., ¶ 49.) At no point did any of the
officers obtain a warrant, or even discuss getting a
warrant. (Id., ¶ 38.)
At about 9:12 p.m., Deputies Curran and
Higdon indicated that they were going to go quietly
around the side of the driveway to “try to get a better
position” so they could take shots at Harley. (Id.,
¶ 39.) This required them to cross the fence and take
cover in a second driveway, also on the O’Kelley
property. (Id.) This driveway ran roughly parallel to
6

(and a few feet lower than) the one where Harley
was standing. (Id.) The two driveways were
separated by a hedge and a small embankment. (Id.)
Harley told the deputies that he was tired and
wanted to go to bed, and that he was going to his
cabin to get a drink of water. (Id., ¶ 40.) This time,
the officers did not stop him; true to his word, he
returned from his cabin with a flashlight in one hand
and a jug of water in the other. (Id., ¶ 41.) He did not
bring with him the SKS rifle that was under the bed
in his cabin. (Id.) His pistol was holstered. (Id.) He
pointed out to the officers that he was not the
aggressor here, and told them that they were
trespassing while he had never crossed the fence
line. (Id., ¶ 41.)
While Harley was getting his water jug,
however, Curran and Higdon had crossed the fence
and gotten into position in the lower driveway with
their shotguns. (Id., ¶ 40.) Curran had urged Deputy
Kerger to draw Harley closer to the fence, which she
did by approaching Harley unarmed and inviting
him to come talk with her. (Id., ¶ 42.) Deputy
Musgrave covered Kerger during this operation. (Id.,
¶ 57.) The Deputies did this for the purpose of
drawing Harley into a spot where Curran could get a
good shot at him. (Id., ¶ 58.)
When Harley approached the fence to talk,
Curran fired three rounds from a twelve-gauge
shotgun loaded with shot-filled beanbags, striking
Harley with at least one round. (Id., ¶ 43.) Harley
returned fire, and the other deputies and GSP
officers shot him dead. (Id., ¶ 43-44.)

7

II.

Statement of Proceedings Below

This action was brought by Harley’s surviving
parents, Janet Turner O’Kelley and John Allen
Turner (collectively “Plaintiffs”). (Doc. 1.) In the
Complaint, Plaintiffs allege: (1) claims under 42
U.S.C. § 1983 for the warrantless and unreasonable
seizure and killing of John Harley Turner within the
curtilage of his home by Defendants Curran, Higdon,
Holloway, Musgrave, Kerger, Salcedo, and Curtis;
(2) claims under 42 U.S.C. § 1983 against Sheriff
Craig for failure to train his deputies; (3) claims
under state law for the wrongful death of John
Harley Turner; and (4) a claim for costs, including
attorneys’ fees, under 42 U.S.C. § 1988. (Id., ¶¶ 4577.)
In response to the Complaint, all of the
Defendants filed motions to dismiss pursuant to
Federal Rule of Civil Procedure 12(b)(6) for alleged
failure to state a claim upon which relief could be
granted. (Doc. 7, Doc. 21.) In an Order dated
September 27, 2018, the District Court granted these
motions and dismissed the action in its entirety.
(Pet. App. B.) Plaintiffs filed a timely Notice of
Appeal on October 26, 2018. (Doc. 33.)
On July 16, 2019, the Eleventh Circuit
entered its unanimous, unpublished, per curiam
opinion affirming in part and reversing in part the
judgment of the District Court. (Pet. App. A.) As the
Eleventh Circuit noted, Defendants made important
concessions that framed the issues presented on
appeal.
At the outset, we note that the parties agree
on certain points. Plaintiffs and the Deputies
agree that Harley was seized within the
curtilage of his home—exactly when is not
8

particularly important for the time being—
and that Deputies Curran and Higdon entered
the curtilage. Because the Deputies lacked a
warrant, the parties also agree that the
Deputies
needed
consent
or
exigent
circumstances. For purpose of this opinion
only, we assume without deciding that the
parties are correct on these matters.
(Pet. App. A, p. 14a.) Thus, the Court of Appeals held
that it could set aside the issue of whether probable
cause existed:
While the parties dispute the existence
of probable cause or reasonable suspicion, we
need not address that issue. Even assuming
probable cause to arrest existed, no exception
to the warrant requirement applied on the
facts alleged.
Harley clearly did not consent, and no
exigent circumstances existed here. The
Deputies contend, and the district court
concluded, that exigent circumstances existed
because they faced an “emergency situation[]
involving endangerment to life.” Holloway,
290 F.3d at 1337. This exception applies
“[w]hen the police reasonably believe an
emergency exists which calls for an immediate
response to protect citizens from imminent
danger.” Id.
But no reasonable officer would believe
that Harley’s conduct presented an imminent
risk of serious injury to the Deputies or
others.
(Id. (emphasis in original).)

9

The Eleventh Circuit explained that the
requirement of an imminent danger had long been
clearly established, and cited its nearly two-decadeold decision in United States v. Holloway, 290 F.3d
1331 (2002), for the rule that “circumstances do not
qualify as exigent [under the endangerment-to-life
exception to the warrant requirement] unless ‘the
police reasonably believe an emergency exists which
calls for an immediate response to protect citizens
from imminent danger.’” (Pet. App. A, p. 19a.) On
the facts alleged in the Complaint, the Eleventh
Circuit held, no reasonable officer would believe this
well-settled legal standard was met:
Based on the factual allegations in the
complaint, which we must accept as true, this
was not a situation where it would be
“difficult for an officer to determine how the
relevant
legal
doctrine”—here
exigent
circumstances—would apply. Mullenix v.
Luna, 577 U.S. ___, ___, 136 S. Ct. 305, 308
(2015) (quotation marks omitted). There are
no facts alleged in the complaint indicating
that, notwithstanding Harley’s possession of a
firearm, this was an “emergency situation[]
involving endangerment to life.” Holloway,
290 F.3d at 1337. Accordingly, qualified
immunity is not appropriate at this stage,
though the Deputies are free to raise the
defense again in a motion for summary
judgment.
(Id., pp. 19a-20a.)
Defendants filed a Petition for Rehearing,
which the Eleventh Circuit denied without any of
the judges in active service having requested a poll.
(11th Cir. Case No. 18-14512, Doc. 8/6/2019 (Petition
10

for Rehearing); Doc. 10/28/2019 (denial). Defendants
then filed a motion requesting that the Eleventh
Circuit stay its mandate pending the filing and
adjudication of a Petition for Writ of Certiorari in
the United States Supreme Court. (11th Cir. Case
No. 18-14512, Doc. 11/4/2019.) The Eleventh Circuit
summarily denied that motion. (Id., Doc.
11/18/2019.)
Defendants’ Petition for Writ of Certiorari was
docketed in this Court on January 30, 2020.
REASONS TO DENY THE PETITION
I.

This is not a proper case in which to decide
what precedents, other than this Court’s
precedents, may clearly establish the law for
purposes of qualified immunity.

In their first question presented, Defendants
ask this Court to grant certiorari to decide
“[w]hether a panel decision decided nine days before
the relevant conduct in question constitutes clearly
established law to deprive government officers of
qualified immunity.” Pet., i. Defendants make a
strained effort to link that question with the one
noted by this Court in D. C. v. Wesby, 138 S. Ct. 577,
591 (2018), which was, “what precedents—other
than [those of this Court]—qualify as controlling
authority for purposes of qualified immunity.” The
question raised in Wesby is important, to be sure;
but this is not a proper case in which to decide it,
and Defendants do not even ask this Court to do so.
The precise issue noted in Wesby was not
raised in either lower court, and the Eleventh
Circuit’s decision did not even mention its general
circuit rule regarding the types of authority that
may clearly establish the law. The distinct issue that
11

Petitioners attempt to raise — whether a circuitcourt decision constitutes clearly established law
after being on the books for nine days — is logically
posterior to the question noted in Wesby, such that a
decision on one would not necessarily resolve the
other. Defendants cannot point to a mature circuit
split on their lesser, timing-related issue, and even if
they could, that issue was not raised or decided in
either lower court. In fact, Defendants expressly
conceded that the Eleventh Circuit precedent in
question, Moore v. Pederson, 806 F.3d 1036, 1046
(11th Cir., Oct. 15, 2015), had created clearly
established law. This Court should not grant
certiorari on an issue that turns on a circuit court’s
use of its own precedent, without having the benefit
of full adversarial briefing and an express decision
on that issue in the circuit court itself. For these
reasons, and as demonstrated below, certiorari
should be denied as to the first question presented in
Defendants’ Petition.
A.

Defendants’ first question presented
was waived below.

Defendants make no serious effort to show
that the issues raised in their Petition were properly
raised and ruled upon in the lower courts. That is
because they were not. As Defendants have admitted
in post-appeal briefing in the District Court, the very
first time Defendants ever argued that a nine-dayold circuit precedent could not constitute clearly
established law was in Defendants’ Petition for
Rehearing En Banc in the Eleventh Circuit. See
O’Kelley v. Craig, U.S. Dist. Ct. N. D. Ga., Case No.
2:17-cv-00215-RWS, Doc. 56 (Defendants’ Reply in
Support of Motion to Stay Discovery Pending
Certiorari, filed 02/25/20), pp. 4-7 (admitting that
12

the issue was not raised until Defendants’ Petition
for Rehearing En Banc). That is too late. The
Eleventh Circuit deems arguments that were not
made in an appellee’s initial brief to be procedurally
waived. Hamilton v. Southland Christian Sch., Inc.,
680 F.3d 1316, 1319 (11th Cir. 2012). And
Defendants had every opportunity to raise this
argument earlier, because Plaintiffs cited the
Pederson decision as clearly established law in both
the District Court and the Eleventh Circuit.
O’Kelley, N. D. Ga., Case No. 2:17-cv-00215-RWS,
Doc. 22, p. 14; 11th Cir., Case No. 18-14512-EE,
Brief of Appellant filed Dec. 24, 2018, pp. 19-20. But
Defendants did not use those opportunities to make
the argument they are making now.
To the contrary, Defendants expressly
conceded in their Eleventh Circuit brief that “Moore
[v. Pederson] specifically created clearly established
law in [the Eleventh] Circuit for the basic principle
that ‘an officer may not conduct a Terry-like stop in
the home in the absence of exigent circumstances.’”
11th Cir., Case No. 18-14512-EE, Brief of Appellee
filed March 13, 2019, p. 35. They further admitted
that “[Moore] did this just 9 days before the actions
in this case.” Id. They even endorsed this ruling,
stating, “Defendants have no qualm with this
Court’s holding in Moore [v. Pederson]. To them, it
was the correct ruling, and set the proper analytical
framework for disposition of the issues in this case.”
Id., p. 36. By expressly inviting the Eleventh Circuit
to rely on Pederson as clearly established law,
Defendants affirmatively waived the issue they now
attempt to raise as the first question presented in
their Petition.

13

B.

The Eleventh Circuit did not decide
Defendants’ first question presented.

“The Court does not ordinarily decide
questions that were not passed on below.” City &
Cty. of S.F. v. Sheehan, 575 U.S. 600, 135 S. Ct.
1765, 1773 (2015). Because Defendants did not
contest whether Pederson clearly established a rule
against Terry stops in the home, the Eleventh
Circuit had no occasion to decide that issue. But
even if Defendants had briefed it, the issue still
would have been inessential to the decision below.
The Eleventh Circuit rested its decision on
two grounds. The first was Defendants’ concession
that they needed either consent or exigent
circumstances for a warrantless seizure. Pet. App.,
p. 14a (“Because the Deputies lacked a warrant, the
parties also agree that the Deputies needed consent
or exigent circumstances.”). The second was the
circuit court’s holding that the facts alleged in the
Complaint would not support a reasonable belief
that either consent or exigent circumstances existed.
Id. (“Even assuming probable cause to arrest existed,
no exception to the warrant requirement applied on
the facts alleged.”). This approach obviated the
parties’ dispute as to whether Defendants needed
probable cause or mere reasonable suspicion. Id.
Defendants make much of the fact that the
circuit court cited the Pederson decision. Indeed, it
did; but only for the proposition that a warrantless
search inside the home requires either consent or
exigent circumstances. Pet. App., pp. 18a-19a. This
is a well-settled point of law that Defendants did not
dispute. Id., p. 14a (“Because the Deputies lacked a
warrant, the parties . . . agree that the Deputies
needed consent or exigent circumstances.”). Indeed,
14

the requirement of exigent circumstances has been
clearly established at least since this Court’s
decision in Payton v. New York, 445 U.S. 573, 590,
100 S. Ct. 1371 (1980) (“Absent exigent
circumstances, th[e] threshold [of the home] may not
reasonably be crossed without a warrant.”). Other
Eleventh Circuit decisions also have reiterated this
rule. See, e.g., Feliciano v. City of Miami Beach, 707
F.3d 1244, 1251 (11th Cir. 2013) (“A warrantless and
nonconsensual entry into a person’s home, and any
resulting search or seizure, violates the Fourth
Amendment unless it is supported by both probable
cause and exigent circumstances.”) (citing cases).
Thus, the rule for which the Eleventh Circuit cited
Pederson was much more than a nine-day-old rule.
When the Eleventh Circuit’s use of the Pederson
decision is viewed in the full context of the decision
below, it is clear that Defendants’ first question
presented is not really presented at all.
Indeed, even if the decision below had turned
on Pederson’s holding that a Terry stop cannot be
conducted in the suspect’s home — which it did not
— that holding still would have been more than nine
days old on the date of the incident-in-suit. The
Eleventh Circuit’s decision in Moore first came down
on September 16, 2015, which is thirty-eight days
prior to Defendants’ seizure of Turner on October 24,
2015. Moore v. Pederson, 801 F.3d 1325 (11th Cir.,
Sept. 16, 2015). Defendants ignore this first opinion,
and refer to a substituted opinion that was entered
about a month later; but the relevant holding did not
change between the two opinions. Compare Moore,
806 F.3d at 1039 (Oct. 15, 2015) (“For these reasons,
we hold today that, in the absence of exigent
circumstances, the government may not conduct the
equivalent of a Terry stop inside a person’s home.”).
15

with Moore, 801 F.3d at 1327 (Sept. 16, 2015) (“For

this reason, we hold today that, in the absence of
exigent circumstances, the government may not
conduct the equivalent of a Terry stop inside a
person’s home.”).
This ambiguity in the timing of the Moore
decision, which Defendants conveniently do not
mention, makes Defendants’ Petition a poor vehicle
for deciding the general question of how long a
circuit-court opinion must be on the books before it
becomes clearly established law. Indeed, Defendants
themselves admit that a panel decision of a circuit
court could, “perhaps, constitute clearly established
law . . . twenty-one (21) days after the issuance of
the panel decision . . ..” Pet., p. 10. Given that
admission, Pederson’s original opinion would have
been clearly established law on the date of the
incident-in-suit. The ambiguity of the Pederson
decision’s timing therefore is material by the terms
of Defendants’ own argument.
The fact that there are actually two Pederson
opinions entered nearly a month apart makes it all
but certain that a decision on Defendants’ first
question presented would be highly recorddependent and useless to most lower courts. Possibly
a ruling from the Eleventh Circuit could have placed
the issue on a different footing, but Defendants did
not seek or obtain such a ruling. The resulting record
cannot support a grant of certiorari.
C.

There is no applicable split of authority.

Defendants do not and cannot point to any
split of authority among the circuit courts or state
courts of last resort regarding Defendants’ first
question presented. Instead of citing decisions that
explicitly discuss the issue and reach squarely
16

conflicting conclusions, Defendants claim vaguely
that “there is mass confusion in the Circuit Courts
nationwide as to how long an appellate decision
must be in existence before it can give an officer ‘fair
warning’ that his conduct is unconstitutional.” Pet.,
p. 20. But the cases they cite do not substantiate
that claim. Nor did Defendants cite those cases in
the Eleventh Circuit, so as to give that court the
opportunity to clear up any supposed “confusion.” At
any rate, Defendants do not claim, and cannot show,
that this alleged “confusion” rises to the level of a
direct and mature conflict of authority, so as to
require this Court’s intervention. At best,
Defendants’ cases show that their first question
presented is still percolating in the circuit courts. It
should continue to do so until a true split emerges.
Defendants just describe one case after
another, and then leap without further analysis to
their vague generalization that there is “mass
confusion” among the circuit courts. But it is
instructive to categorize the decisions on which
Defendants rely. Of the eight decisions, five held
that a circuit-court decision more than nine days old
was sufficient to constitute clearly established law.
See Lintz v. Skipski, 25 F.3d 304, 306 (6th Cir. 1994)
(four months); Arebaugh v. Dalton, 730 F.2d 970,
971 (4th Cir. 1984) (twelve days); Robinson v. Bibb,
840 F.2d 349, 350 (6th Cir. 1988) (two years; some
discussion in dicta of a four-day-old Supreme Court
opinion); Garcia by Garcia v. Miera, 817 F.2d 650,
652 (10th Cir. 1987) (holding that eight months was
sufficient, but also holding that the relevant point of
law was clearly established even before that); Doby
v. Hickerson, 120 F.3d 111 (8th Cir. 1987) (22 days
held sufficient). Plainly, such decisions do not
conflict with the Eleventh Circuit’s decision here.
17

One case, Affiliated Capital Corp. v. City of
Houston, 735 F.2d 1555, 1559 (5th Cir. 1984), was
not a Section 1983 case at all, but was decided under
the antitrust laws. In Affiliated Capital, the Fifth
Circuit held that the mayor of Houston, Texas, had
qualified immunity from suit under the Sherman
Antitrust Act for official actions taken during a
period when the scope of the “state action” exception
to antitrust liability was uncertain. Antitrust law
was in an unusual state of doctrinal flux at that
time, as evidenced in part by this Court’s split
decision in Lafayette v. Louisiana Power & Light
Co., 435 U.S. 389, 98 S. Ct. 1123, 55 L. Ed. 2d 364
(1978). Defendants do not appear to contend that
any similar state of flux existed in Fourth
Amendment law when they effected their
warrantless seizure of Harley Turner. At any rate, a
thirty-six-year-old antitrust case hardly counts as
evidence that circuit courts today are confused about
qualified-immunity law under Section 1983.
Defendants’ next case, Schlothauer v.
Robinson, 757 F.2d 196, 197 (8th Cir. 1985), involved
a warrantless arrest that occurred in 1979, before
this Court’s 1980 decision in Payton v. New York,
445 U.S. 573, 586-90, 63 L. Ed. 2d 639, 100 S. Ct.
1371 (1980). The Eighth Circuit had presaged the
rule in Payton by holding, in United States v. Houle,
603 F.2d 1297, 1300 (8th Cir. 1979), that a
warrantless seizure in the home violated the Fourth
Amendment
absent
exigent
circumstances.
Defendants are correct that the Houle decision was
handed down eleven days prior to the arrest at issue
in Schlothauer; but it was not timing alone that
caused the Eighth Circuit in Schlothauer to hold
that Houle did not count as clearly established law
at the time of that arrest. As the Houle court noted,
18

this Court had “indicated that the question
remain[ed] open,” 603 F.2d at 1299, and had granted
certiorari in Payton itself to resolve it, 603 F.2d at
1298, n.1 (referring to Payton under the name of its
companion case, Riddick v. New York, 45 N.Y.2d
300, 408 N.Y.S.2d 395, 380 N.E.2d 224, Prob. juris.
noted, 439 U.S. 1045, 99 S. Ct. 718, 58 L. Ed. 2d 703
(1978)). Thus, Schlothauer, like Affiliated Capital, is
a case where a circuit court held that the governing
law could not be deemed clearly established while
this Court was still in the middle of developing it.
That unusual situation does not exist here, of course,
because the requirement of consent or exigent
circumstances for a warrantless seizure in the home
has been settled law since this Court decided Payton.

Bryan v. United States, 913 F.3d 356, 358 (3d
Cir. 2019), is the only case cited by Defendants that
actually grants qualified immunity on the grounds
that a controlling authority was of too recent vintage
for the relevant law-enforcement officers to become
aware of it. But the underlying authority in Bryan
was handed down just one or two days before the
conduct at issue. See 913 F.3d at 363 (“For purposes
of qualified immunity, a legal principle does not
become ‘clearly established’ the day we announce a
decision, or even one or two days later.”). That
holding does not conflict with the decision of the
Eleventh Circuit here, which cited a panel decision
that was either nine or thirty-eight days old at the
time of the incident-in-suit (depending on which of
the two Pederson opinions is deemed to have
established the law).
Again, because Defendants did not raise the
issue until their Petition for Rehearing, the decision
of the Eleventh Circuit in this case does not lay
down any categorical rule about how long a panel
19

decision must be on the books before it can
constitute clearly established law. That being so, it
does not conflict with any other decision that might
set forth such a rule. And even if such a conflict
existed — which it does not — it would not warrant
this Court’s intervention. The fact that the Eleventh
Circuit panel designated its opinion in this case as
unpublished means that future panels of that Court
will not consider it binding precedent. See 11th Cir.
Rule 36-2 (providing that unpublished opinions are
not deemed precedential). If — unlike Defendants —
a future litigant actually raises and briefs the issue,
the Eleventh Circuit is at liberty to decide it without
any need for this Court to get involved.
II.

Defendants’ second question also was not
argued or decided below and is not a proper
candidate for certiorari on this record.

Defendants’ second question presented also
relates to the timing of the Moore v. Pederson
decision. For that reason, it is subject to most of the
same objections as Defendants’ first question.
Defendants simply did not argue in the lower courts
that the Pederson decision was too recent for them to
have been subjectively aware of it at the time of the
incident-in-suit. To the contrary, as demonstrated
above, Defendants expressly agreed that Pederson
constituted clearly established law. This concession
squarely forecloses the questions that Defendants
now ask this Court to review. Moreover, because
Defendants did not dispute the issue of timing as
such, the Eleventh Circuit did not address that issue
in its decision. This Court should not grant certiorari
on an issue that the lower courts did not decide.
Sheehan, 575 U.S. 600, 135 S. Ct. 1765, 1773 (2015).

20

It is at least equally important that, as also
demonstrated above, the Pederson decision’s rule
against Terry stops in the home was not material to
the reasoning of the decision below. Even if
Defendants reasonably could have believed that it
was permissible to seize Turner on reasonable
suspicion rather than probable cause, that belief
would make no difference. The Eleventh Circuit’s
decision turned on the lack of exigent circumstances,
not the lack of probable cause. See Pet. App., p. 14a
(“While the parties dispute the existence of probable
cause or reasonable suspicion, we need not address
that issue. . .. Harley clearly did not consent, and no
exigent circumstances existed here.”). Accordingly, it
does not matter whether Defendants were
subjectively aware of the Pederson decision at the
time of their warrantless seizure. Even if Pederson
had never been decided, the Eleventh Circuit’s
holding that no exigent circumstances existed (and
its further holding that this should not have been a
difficult question for the officers to answer, Pet.
App., p. 19a) would suffice to support the decision
below.
Finally, the procedural posture of the case
forecloses Defendants’ effort to argue that they were
subjectively unaware of the Pederson decision. This
appeal arose from a ruling on Defendants’ Motion to
Dismiss pursuant to Federal Rule of Civil Procedure
12(b)(6). Thus, Defendants’ alleged subjective
unawareness of Pederson cannot be taken for
granted just because they now attempt to assert it in
a Petition for Writ of Certiorari. Instead, this Court,
like the courts below, must credit Plaintiffs’
allegation that Defendants knew there was no
applicable exception to the warrant requirement. See
Resp. App., p. 11a (¶ 47). At a minimum, the
21

allegations of the Complaint do not establish
Defendants’ subjective unawareness of Pederson as a
matter of law. In fact, the allegations of the
Complaint do not mention Pederson at all.
Defendants’ subjective unawareness of that decision,
even if it were legally relevant, cannot be taken for
granted in the current posture of the case.
III.

Certiorari should not be granted to determine
whether the Eleventh Circuit correctly applied
its own circuit precedent.

In their third question presented, Defendants
ask this Court to review the Eleventh Circuit’s
application of the circuit court’s own decision in
Moore v. Pederson. According to Defendants, the
rule established in Pederson was expressed at so
high a level of generality that a reasonable officer
could not have known it would apply here. This
argument fails.
To be precise, Defendants’ objection is not that
they were unable to determine from Pederson that a
Terry stop in the boundaries of the home was
unlawful. They admit that Pederson clearly
established “the generalized proposition . . . that ‘an
officer may not conduct a Terry-like stop in the home
in the absence of exigent circumstances, consent, or
a warrant.” Pet., p. 29. Nor is their argument based
on a purported distinction between the home and the
curtilage. Instead, their argument is that “the
nonviolent, nonthreatening exchange in [Pederson]
could not possibly have alerted an objectively
reasonable officer that his actions in this highly
tense and dangerous situation would have violated
the constitutional rights of the suspect.” Id. That is,
they contend that Pederson’s admittedly categorical
rule against Terry stops in the home did not put
22

them on notice that exigent circumstances were
lacking for their warrantless seizure in this case.
This confused argument fails to recognize that
the rule requiring exigent circumstances to support
a warrantless arrest is distinct from the independent
requirement of probable cause. Even if Defendants
could evade the latter requirement by claiming to
conduct a Terry stop in the home, they still would
need to satisfy the former requirement by
demonstrating exigent circumstances. And the
Eleventh Circuit’s Pederson decision simply did not
establish any new rule, general or particular,
regarding the existence vel non of exigent
circumstances. Indeed, Defendants make no effort to
argue that the Eleventh Circuit relied on some
unique holding in Pederson to establish that exigent
circumstances were lacking on the facts of this case.
Nor could they. To the contrary, the Eleventh Circuit
expressly held that “the parameters of the exigentcircumstances doctrine were well-established before
[Pederson], including, as relevant here, that
circumstances do not qualify as exigent unless the
police reasonably believe an emergency exists which
calls for an immediate response to protect citizens
from imminent danger.” Pet. App., p. 19a (citing
United States v. Holloway, 290 F.3d 1331 (2002)).
Thus, on the dispositive issue in this case — the
nature of the exigent-circumstances requirement —
the Eleventh Circuit expressly held that Pederson
was not some novel or exclusive source of clearly
established law. Even if this Court were inclined to
grant the writ of certiorari to second-guess a circuit
court’s reliance on intra-circuit precedent, it should
not do so here, where the reliance complained of by
Defendants did not occur.

23

CONCLUSION
For the foregoing reasons, certiorari should be
denied as to all three of Defendants’ questions
presented.
Respectfully submitted,
SIDNEY LEIGHTON MOORE, III

Counsel of Record

THE MOORE FIRM, P.C.
1026 Kasper Road
Moscow, ID 83843
(404) 285-5724
leighton@moorefirmpc.com
Dated: March 2, 2020

24

APPENDIX

APPENDIX A
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
GAINESVILLE DIVISION
JANET TURNER O’KELLEY, Individually and as
Personal Representative of the Estate of John
Harley Turner; and JOHN ALLEN TURNER,
Plaintiffs,
v.
SHERIFF DONALD E. CRAIG; SGT. TRAVIS
PALMER CURRAN, a/k/a TRAVIS LEE PALMER;
DEP. FRANK GARY HOLLOWAY; DEP. KEELIE
KERGER; DEP. BILL HIGDON; DEP. TODD
MUSGRAVE, OFC. JONATHAN SALCEDO, and
OFC. RODNEY CURTIS,
Defendants.
Civil Action No.
Jury Trial Demanded
COMPLAINT FOR DAMAGES
Janet Turner O’Kelley, individually and as
Personal Representative of the Estate of John
Harley Turner, and John Allen Turner (collectively
“Plaintiffs”), file this Complaint for Damages against
Defendants Sheriff Donald E. Craig; Sgt. Travis
Palmer Curran, a/k/a Travis Lee Palmer; Deputy
Frank Gary Holloway; Deputy Keelie Kerger;
Deputy Bill Higdon; Deputy Todd Musgrave; Officer
1a

Jonathan Salcedo; and Officer Rodney Curtis
(“Defendants”), showing this Honorable Court the
following:
INTRODUCTION
1. This is a civil action asserting claims under
state and federal law arising from the unlawful
seizure, aggravated assault and battery, and
wrongful death of John Harley Turner, caused by the
willful and wrongful acts of the Defendants.
Plaintiffs demand a jury trial and seek an award of
economic, compensatory, and punitive damages, as
well as an award of attorneys’ fees and costs.
PARTIES, JURISDICTION AND VENUE
2.
Plaintiff Janet Turner O’Kelley owns
and resides at a property located at 1607 Carver Mill
Road, Pickens County, Georgia. She is the mother of
the late John Harley Turner, and the personal
representative of his Estate.
3.
Plaintiff John Allen Turner is a
resident of Texas and is the father of the late John
Harley Turner.
4.
Defendant Sheriff Donald E. Craig
resides in this judicial district and is subject to the
personal jurisdiction of this Court. Defendant Craig
may be served with Summons and a copy of the
Complaint through the counsel retained by Pickens
County to represent him: Mr. Phillip E. Friduss,
Esq., Hall Booth Smith, P.C., 191 Peachtree St. NE,
Suite 2900, Atlanta, GA 30303.
5.
At all times relevant to this action,
Defendant Craig was acting under color of state law
and within the scope of his functions as the Sheriff of
2a

Pickens County and chief policymaking official of the
Pickens County Sheriff’s Office (“PCSO”).
6.
Defendant Sgt. Travis Palmer Curran
resides in this judicial district and is subject to the
personal jurisdiction of this Court. Upon information
and belief, he is also known as Travis Lee Palmer.
Defendant Curran may be served with Summons
and a copy of the Complaint through the counsel
retained by Pickens County to represent him: Mr.
Phillip E. Friduss, Esq., Hall Booth Smith, P.C., 191
Peachtree St. NE, Suite 2900, Atlanta, GA 30303.
7.
At all times relevant to this action,
Defendant Curran was acting under color of state
law and within the scope of his functions as a law
enforcement officer employed by the PCSO.
8.
Defendant Frank Gary Holloway
resides in this judicial district and is subject to the
personal jurisdiction of this Court. Defendant
Holloway may be served with Summons and a copy
of the Complaint through the counsel retained by
Pickens County to represent him: Mr. Phillip E.
Friduss, Esq., Hall Booth Smith, P.C., 191 Peachtree
St. NE, Suite 2900, Atlanta, GA 30303.
9.
At all times relevant to this action,
Defendant Holloway was acting under color of state
law and within the scope of his functions as a law
enforcement officer employed by the PCSO.
10.
Defendant Keelie Kerger resides in this
judicial district and is subject to the personal
jurisdiction of this Court. Defendant Kerger may be
served with Summons and a copy of the Complaint
through the counsel retained by Pickens County to
represent her: Mr. Phillip E. Friduss, Esq., Hall
3a

Booth Smith, P.C., 191 Peachtree St. NE, Suite
2900, Atlanta, GA 30303.
11.
At all times relevant to this action,
Defendant Kerger was acting under color of state
law and within the scope of her functions as a law
enforcement officer employed by the PCSO.
12.
Defendant Bill Higdon resides in this
judicial district and is subject to the personal
jurisdiction of this Court. Defendant Higdon may be
served with Summons and a copy of the Complaint
through the counsel retained by Pickens County to
represent him: Mr. Phillip E. Friduss, Esq., Hall
Booth Smith, P.C., 191 Peachtree St. NE, Suite
2900, Atlanta, GA 30303.
13.
At all times relevant to this action,
Defendant Higdon was acting under color of state
law and within the scope of his functions as a law
enforcement officer employed by the PCSO.
14.
Defendant Todd Musgrave resides in
this judicial district and is subject to the personal
jurisdiction of this Court. Defendant Musgrave may
be served with Summons and a copy of the
Complaint through the counsel retained by Pickens
County to represent him: Mr. Phillip E. Friduss,
Esq., Hall Booth Smith, P.C., 191 Peachtree St. NE,
Suite 2900, Atlanta, GA 30303.
15.
At all times relevant to this action,
Defendant Musgrave was acting under color of state
law and within the scope of his functions as a law
enforcement officer employed by the PCSO.
16.
Defendant Jonathan Salcedo resides in
this judicial district and is subject to the personal
jurisdiction of this Court. Defendant Salcedo may be
4a

served with Summons and a copy of the Complaint
at his workplace: Georgia State Patrol Post 28, 3100
Camp Road, Jasper GA 30143.
17.
At all times relevant to this action,
Defendant Salcedo was acting under color of state
law and within the scope of his functions as a law
enforcement officer employed by the Georgia State
Patrol (“GSP”).
18.
Defendant Rodney Curtis resides in this
judicial district and is subject to the personal
jurisdiction of this Court. Defendant Curtis may be
served with Summons and a copy of the Complaint
at his workplace: Georgia State Patrol Post 28, 3100
Camp Road, Jasper GA 30143.
19.
At all times relevant to this action,
Defendant Curtis was acting under color of state law
and within the scope of his functions as a law
enforcement officer employed by the Georgia State
Patrol (“GSP”).
20.
This Court has jurisdiction of the
subject matter pursuant to 28 U.S.C. § 1331, because
this action arises under the laws of the United
States, specifically 42 U.S.C. §§ 1983 and 1988.
21.

Venue is proper in this district.
FACTUAL ALLEGATIONS

22.
On October 24, 2015 at 8:28 p.m., a
hunter named Kevin Moss called Pickens County
911. He reported that he and some others had been
coon hunting on a property on Carver Mill Road, and
that a person on a neighboring property had yelled
at them through the woods, accusing them of
trespassing and threatening them with bodily harm
if they did not leave. Moss claimed that he had not
5a

trespassed on the neighbor’s land. He specifically
told the 911 operator that he did not know who
allegedly had threatened him or whether the person
was armed.
23.
The 911 operator ascertained Moss’s
location and asked if he was safe to wait there for
the officers. Moss said he would wait for them.
24.
The 911 operator reported the incident
to law enforcement as a completed domestic
disturbance. Pickens County Sheriff’s Deputies
Frank Gary Holloway, Keelie Kerger, and Bill
Higdon responded to the call. This was Kerger’s first
night on patrol. She and Holloway, her Field
Training Officer, rode in Holloway’s Explorer.
Higdon drove separately in a patrol car.
25.
The deputies first stopped to speak with
Moss at the intersection of Carver Mill Road and
Dean Mill Road, where he had waited for them to
arrive. After talking with Moss, the deputies
proceeded to the property at 1607 Carver Mill Road.
26.
John Harley Turner (“Harley”) lived at
1607 Carver Mill Road in a small house behind the
main house, which is occupied by Harley’s mother,
Janet Turner O’Kelley, and her husband, Stan
O’Kelley. The O’Kelley and Turner houses were
enclosed in a fence with a closed gate that blocked
the driveway.
27.
At approximately 9:00 p.m., Holloway,
Kerger, and Higdon arrived at 1607 Carver Mill
Road. When they arrived at the property, there was
no crime in progress.
28.
Stan O’Kelley met Deputies Holloway,
Kerger, and Higdon in the driveway outside the gate.
6a

Stan explained to them that the man who had been
reported was his stepson Harley, and that Harley
was armed.
29.
As the officers spoke with Mr. O’Kelley,
Harley approached the gate from the back house. He
was shirtless and armed with a pistol with a chest
holster. Harley was talking loudly about trespassing
as he approached, but he did not point the gun at
anyone and did not threaten anyone with the gun.
He did not open the gate.
30.
Shouting and with guns raised, the
deputies ordered Harley to put his hands up and put
his gun down. The deputies did not immediately
identify themselves as law enforcement officers. He
replied, “I already put the gun down,” and asked,
“Why are you trying to trespass?” One of the male
officers responded, “We’re not trespassing; we’re
cops.”
31.
At approximately that time Deputy
Todd Musgrave arrived, followed immediately by
Deputy Travis Curran. Deputy Musgrave carried a
shotgun. Deputy Curran had two shotguns, one of
which was loaded with “less lethal” beanbag rounds.
Two Georgia State Patrol officers, Jonathan Salcedo
and Rodney Curtis, also arrived at about that time,
armed with rifles. Salcedo and Curtis took up sniper
positions.
32.
Still within the gate, Harley began
walking back to his house, with his hands above his
head and his back to the deputies. He held the
flashlight in one hand and the gun in the other.
While Harley walked away, the deputies shouted at
him to put the gun down and get on the ground.

7a

33.
Harley turned towards the officers and
told them to just keep trespassers off his property.
He again began walking away, but the deputies —
still pointing guns at his back — ordered him to
come back to the fence.
34.
Around 9:05 p.m., Janet Turner
O’Kelley arrived at the property. She had been away
for the evening, volunteering at a local community
theater. Ms. O’Kelley saw that Curran had a
shotgun, and she told the officers that there should
be no shooting and that Harley would defend himself
if they opened fire. The deputies would not let Ms.
O’Kelley talk to Harley, but sent her back down the
driveway towards her vehicle. They had previously
sent Stan into a neighbor’s house to get him out of
the way.
35.
Video and audio recordings show that a
verbal back-and-forth ensued for approximately the
next half-hour as officers attempted to get Harley to
put his gun down while Harley walked back and
forth, wearing his gun in a chest holster and arguing
that he simply wanted the officers to keep
trespassers away from his property, and he wished
they all would leave so that he could go to bed.
36.
Video and audio recordings show that
Harley was distressed and perceived the deputies as
threatening him. Several times, he challenged them
to “go ahead and shoot me.” The deputies repeatedly
reassured him that they were not going to shoot him.
37.
At no point did Harley verbally
threaten or point the gun toward the deputies. In
fact, at one point during the encounter, Harley
offered to get the deputies a drink of water.

8a

38.
At no point did Harley open the gate or
leave the area within the fence that surrounded the
O’Kelley and Turner residences. At no point did
officers obtain a warrant of any kind, and the video
and audio recordings do not reflect that they ever
even discussed getting a warrant.
39.
In the middle of this verbal encounter,
at about 9:12 p.m., Curran and Higdon indicated
that they were going to go quietly around the side of
the driveway to “try to get a better position” so they
could take shots at Harley. This required them to
cross the fence and take cover in a second driveway,
also on the O’Kelley property. This driveway ran
roughly parallel to (and a few feet lower than) the
one where Harley was standing. The two driveways
were separated by a hedge and a small embankment.
40.
Harley told the deputies that he was
tired and wanted to go to bed, and that he was going
to his cabin to get a drink of water. While he was
gone, Curran and Higdon crossed the fence and got
into position in the lower driveway with their
shotguns.
41.
Harley came back from his cabin with a
flashlight in one hand and a jug of water in the
other. He did not bring with him the SKS rifle that
was under the bed in his cabin. His pistol was in his
chest holster. He began talking to the deputies
again, calling them trespassers and telling them: “I
have never crossed this line, and y’all were the ones
have been the fuckin’ aggressors.” He also stated
that he was tired and would like to go to bed.

9a

42.
Curran urged Kerger to draw Harley
closer to the fence. Kerger introduced herself to
Harley and invited him to come to the fence to talk.
Kerger told Harley that she did not have her gun.
Harley responded positively and asked if she would
like to talk. Kerger said that she could take a
statement from Harley if he would put down his gun.
Harley responded, “I already did,” and Kerger
replied, “It’s on your chest, sir,” indicating that the
gun was in its holster. They continued talking, with
the officers telling Harley that they would not talk
with him until he took his gun out of its holster and
put it on the ground.
43.
About thirty seconds later, an officer
stated in a low voice, “He’s coming back towards the
fence.” At that point, Deputy Curran fired three
rounds from his less-lethal shotgun. At least one
round struck Harley and knocked him down. Harley
drew his pistol and returned fire.
44.
The other deputies and State Patrol
officers then opened fire, raining a hail of bullets on
Harley and killing him. In the chaos, Deputy Kerger
apparently shot Deputy Musgrave in the back,
striking his bulletproof vest.
COUNT I: VIOLATION OF FOURTH AND
FOURTEENTH AMENDMENTS
45.
Plaintiff realleges and incorporates
Paragraphs 1 through 44 as if fully set forth herein.
46.
At all relevant times, Defendants
Curran, Higdon, Holloway, Musgrave, Kerger,
Salcedo, and Curtis (the “Illegal Seizure
Defendants”) knew that there was no warrant that
authorized them to come onto the O’Kelley property
10a

or to seize Harley against his will within the
curtilage of his home.
47.
All of the Illegal Seizure Defendants
also knew that there was no applicable exception to
the warrant requirement, and that they could not
lawfully seize Harley within the curtilage of his
home without going before a neutral magistrate and
obtaining a proper warrant.
48.
Despite knowing that there was no
applicable warrant, and that no legal exception
applied, all of the Illegal Seizure Defendants came
onto the O’Kelley property and remained there for
more than half an hour, despite having been told by
Harley to leave.
49.
Harley remained within the curtilage of
his home at all relevant times.
50.
Despite the absence of any applicable
warrant or exception to the warrant requirement, all
of the Illegal Seizure Defendants participated in the
seizure of Harley within the curtilage of his home.
51.
All of the Illegal Seizure Defendants
knew that Harley was armed, and they knew or
should have known that Harley likely would respond
to being shot by drawing his gun and firing at
Defendants. Among other things, they knew this
because Ms. O’Kelley expressly told them that
Harley would defend himself if they shot at him.
52.
All of the Illegal Seizure Defendants
knew or should have known that, if Harley drew his
gun and fired at Defendants, at least some
Defendants would fire at Harley with the intent to
kill him.

11a

53.
Despite having all of the above
knowledge, all of the Illegal Seizure Defendants
participated and/or acquiesced in the unlawful use of
force against Harley.
54.
In particular, Deputies Curran and
Higdon deliberately crossed the fence and trespassed
on the O’Kelley property for the specific purpose of
getting a better shot at Harley. All of the other
Defendants knew that Curran and Higdon were
going to take this unlawful action, and none of them
made any effort to prevent it.
55.
Deputy
Curran
deliberately
orchestrated the false negotiation by Deputy Kerger
so that he could get a better shot at Harley.
56.
Deputy Kerger participated in the false
negotiation to lure Harley out towards the fence
where Curran could get a better shot at him.
57.
Deputy Musgrave participated in the
false negotiation by covering Deputy Kerger while
she lured Harley out towards the fence.
58.
All of these actions were for the purpose
of helping Curran get a better shot at Harley, who
was within the curtilage of his home, was not
threatening anyone, was not under an arrest
warrant, and had told Defendants that he wanted to
go to bed. There was no lawful justification to use
any force at all against Harley in these
circumstances, much less to shoot him.
59.
The wrongful act of Curran in firing his
shotgun at Harley and striking him with a beanbag
round in the course of an unlawful arrest constituted
assault and battery under Georgia law, violated
Harley’s state and federal constitutional rights to be
12a

free of unlawful seizure and excessive force, and
deprived Harley of liberty and life without due
process of law. All of the other Illegal Seizure
Defendants acted in concert with Curran.
60.
Because of the wrongful acts of all of
the Illegal Seizure Defendants as alleged above,
Harley suffered grave bodily injury and conscious
pain and suffering, including but not limited to the
terror of his approaching death.
61.
The Estate of John Harley Turner is
entitled to recover compensatory and punitive
damages for the Illegal Seizure Defendants’ wrongful
acts described above.
COUNT II: FAILURE TO TRAIN (AGAINST
SHERIFF CRAIG ONLY)
62.
Plaintiffs reallege and incorporate
Paragraphs 1 through 61 as if fully set forth herein.
63.
Sheriff Donald E. Craig is the final
decision-maker of the PCSO with regard to policies
and training concerning all relevant subjects,
including arrest procedures and the use of force.
64.
At all relevant times, Sheriff Craig was
subjectively aware that PCSO deputies needed
adequate policies and training regarding arrest
procedures and the use of force.
65.
Sheriff Craig failed to institute
adequate policies and training to govern arrest
procedures and the use of force, including the use of
deadly force, by PCSO deputies.
66.
As a proximate result of Sheriff Craig’s
failure to institute adequate policies and training to
govern arrest procedures and the use of force, PCSO
13a

deputies
improperly
used
excessive
and
unreasonable force against
Harley Turner,
foreseeably resulting in his death.
67.
As a proximate result of Sheriff Craig’s
failure to institute adequate policies and training to
govern arrest procedures and the use of force, PCSO
deputies employed unreasonable and unlawful
methods to seize Harley Turner at his home,
violating his constitutional right to be free of
unlawful seizure and depriving him of liberty and
life without due process of law.
COUNT III: WRONGFUL DEATH
68.
Plaintiffs reallege and incorporate
Paragraphs 1 through 67 as if fully set forth herein.
69.
The unlawful intentional acts of
Defendants as described in Count I, supra,
proximately caused the wrongful death of John
Harley Turner.
70.
Harley’s surviving parents, Janet
Turner O’Kelley and John Allen Turner, are entitled
to recover the full value of Harley’s life in an amount
to be determined by a jury.
COUNT IV: VIOLATIONS OF CIVIL RIGHTS
71.
Plaintiff realleges and incorporates
Paragraphs 1 through 70 as if fully set forth herein.
72.
Acting under color of state law,
Defendants violated Harley’s federal constitutional
rights by seizing his person without probable cause
or any lawful justification.
73.
Because of this unlawful seizure,
Harley’s estate is entitled to compensatory, punitive,

14a

and/or nominal damages against
pursuant to 42 U.S.C. § 1983.

Defendants

74.
Acting under color of state law,
Defendants violated Harley’s federal constitutional
rights by depriving him of liberty and life without
due process of law.
75.
Because of this unlawful deprivation,
Harley’s estate is entitled to compensatory and
punitive damages against Defendants pursuant to 42
U.S.C. § 1983.
COUNT V: ATTORNEY FEES AND
EXPENSES OF LITIGATION
76.
Plaintiffs reallege and incorporate
Paragraphs 1 through 75 as if fully set forth herein.
Plaintiffs are entitled to an award of costs, including
but not limited to reasonable attorneys’ fees,
pursuant to 42 U.S.C. § 1988.
WHEREFORE, Plaintiffs respectfully request
the following relief:
(a)

That the Court award Plaintiffs
compensatory, punitive, and/or nominal
damages against all Defendants in an
amount to be determined by the
enlightened conscience of an impartial
jury;

(b)

That the Court grant Plaintiffs their
reasonable costs and attorney’s fees in
bringing this action in an amount to be
determined at trial;

(d)

That Plaintiffs be granted a trial by
jury on all issues so triable; and

15a

(e)

That Plaintiffs be granted such other
and further relief as this Court deems
just and proper.

This 23rd day of October, 2017.
Respectfully submitted,

s/ Leighton Moore
Leighton Moore
Georgia Bar No. 520701
The Moore Law Firm, PC
100 Peachtree Street NW
Suite 2600
Atlanta, Georgia 30303
(678) 237-0330
leighton@moorefirmpc.com

Attorney for Plaintiffs

16a

